nn

OCKLE

2311 Douglas Street A ee . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964 Web Site
www.cocklelegalbriefs.com

 

No, 21-146

Christine CLIFFORD (as Administrator of
the Estate of John Clifford), et al.,
Petitioners,

Vv.

Richard FEDERMAN, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF FOR RESPONDENT
ROBERT HALF INTERNATIONAL INC. IN OPPOSITION TO PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7875 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of August, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY Slate of Nebraska a) Dv anaiht Chk
A RENEE J. GOSS ‘°

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant 41365
